                                                    BILINGUAL EDUCATION
ED-OIG-ATLANTA                                            ACN: 04-60152                                    FINAL



                                         TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. .. . . . . I

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

AUDIT RESULTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

          Additional Monitoring Needed to Ensure
          Bilingual Program Objectives are Met . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

          Needed Improvements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

          Recent Approaches
          to Improvements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

          Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

          OBEMLA Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

          OIG Rebuttal . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

OTHER MATTERS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

STATEMENT ON MANAGEMENT CONTROLS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

CHARTS AND GRAPHS

          Figure 1: Title VII State Grant Program Grant Dollars . . . . . . . . . . . . . . . . . . . . . . . . . 8

          Figure 2: Grant TX(1) Specifications                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

          Figure 3: Grant TX(1) Actual Instruction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

APPENDIX . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
                                                BILINGUAL EDUCATION
ED-OIG-ATLANTA                                        ACN: 04-60152                               FINAL



                                                                  BACKGROUND

                                      In 1994, the United States Congress, along with the full support of the
                                      President, passed the Improving America’s Schools Act (IASA). The
                                      IASA’s purposes include providing grants to improve the education
                                      opportunities for bilingual students. Title VII-Bilingual Education,
                                      Language Enhancement, and Language Acquisition Programs (Title
                                      VII) of the IASA emphasizes that the United States has large and
                                      growing numbers of children and youth of limited-English proficiency.
                                      Congress enacted the IASA to help limited-English proficient students
                                      overcome segregated education programs, disproportionate and
                                      improper placement in special education and other special programs,
                                      and the limited-English proficiency of their own parents which hinders
                                      the parents' ability to fully participate in the education of their
                                      children. It is the purpose of Title VII to help ensure that limited-
                                      English proficient students master English and develop high levels of
                                      academic attainment in content areas1.

                                      Title VII acknowledges that it is important to use the students’native
                                      language in the classroom to promote self-esteem, to benefit English-
                                      proficient students who participate in the programs, and to develop
                                      our Nation's national language resources, thus promoting our Nation's
                                      competitiveness in the global economy. It also acknowledges that as
                                      the world becomes increasingly interdependent and as international
                                      communication becomes a daily occurrence in government, business,
                                      commerce, and family life, multilingual skills constitute an important
                                      national resource which deserves protection and development2.

                                      We planned and initiated this audit in response to concerns identified
                                      during our overall survey of the IASA3. The IASA survey report
                                      identified concerns that centered on whether the bilingual programs
                                      are meeting the objectives of the IASA as well as the objectives of the


      1
          Improving America Schools Act, Title VII Sec. 7102 ( a ) (2), and (5) (A), (B), (C), and (8).
      2
          Improving America Schools Act, Title VII, Sec. 7102 ( a ) (14) and (10).
      3
          Review of Improving America’s Schools Act of 1994, OIG Survey Report ACN 04-58201. Issued August 1996.

                                                                                                                   1
                        BILINGUAL EDUCATION
ED-OIG-ATLANTA                ACN: 04-60152                     FINAL

                 individual grants. The report also identified Congressional concerns
                 about the possibility of grant recipient schools not working within the
                 guidelines of the IASA and Title VII. Departmental officials stated
                 that some Congressional members feared that some schools are
                 teaching limited-English proficient students solely in their native
                 language which could impede the students’progress in participating
                 fully in society.




                                                                                      2
                        BILINGUAL EDUCATION
ED-OIG-ATLANTA                ACN: 04-60152                      FINAL



                          SCOPE AND METHODOLOGY

                 The overall objective for the audit was to determine how officials
                 ensure that bilingual program objectives are being met. Because
                 OBEMLA uses monitoring efforts to help ensure that program
                 objectives are being met, we looked at these efforts as we fulfilled our
                 overall objective. We also determined if grant recipient schools are
                 teaching limited-English proficient students in English as well as in
                 their native language(s). Because of the limited scope of our audit,
                 we relied upon responses from officials and auditee provided
                 information. We performed limited substantive testing of grant
                 monitoring controls when needed.

                 To achieve our objectives, we reviewed grants that were in place in
                 fiscal year 1995. Based upon information provided by OBEMLA at
                 the start of our audit, the Department of Education issued
                 approximately $156 million in 635 Title VII bilingual education grants
                 in 1995. Three states, California, New York, and Texas, received
                 over 50 percent of the grants issued. To obtain an understanding of
                 the control environment over this majority, we judgmentally selected
                 representative grants from these three states. The grants discussed in
                 the Audit Results section of this report provide examples of
                 weaknesses in the control environment identified during our audit.

                 Subsequent to our audit, OBEMLA’s response provided updated
                 information concerning the number of grants and the amount of grants
                 awarded. California, New York and Texas still remained the three
                 largest states, with greater than 50 percent of the grants issued for the
                 period. However, OBEMLA was unable to confirm the information
                 provided.

                 During September and October of 1996, we reviewed seven Title VII
                 grants totaling $6.6 million. We visited the Department’s Office of
                 Bilingual Education and Minority Languages Affairs (OBEMLA),
                 three corresponding State Educational Agencies (SEAs), seven
                 corresponding Local Educational Agencies (LEAs), and 14 recipient
                 schools.


                                                                                        3
                        BILINGUAL EDUCATION
ED-OIG-ATLANTA                ACN: 04-60152                 FINAL

                 We interviewed OBEMLA, SEA, LEA, and school officials. We
                 observed classes and interviewed teachers and students as well as
                 reviewed supporting documentation.

                 We conducted the audit in accordance with generally accepted
                 government auditing standards appropriate to the scope of review
                 described above.




                                                                                4
                                            BILINGUAL EDUCATION
ED-OIG-ATLANTA                                    ACN: 04-60152                       FINAL



                                                         AUDIT RESULTS


                                   Our audit identified a need for improving the grant control
Additional                         environment to include additional monitoring by OBEMLA and the
Monitoring Needed                  SEAs. Of the seven grants reviewed, none had received a monitoring
to Ensure Bilingual                review and three of the seven were not being implemented
Program Objectives                 appropriately. Because OBEMLA and the SEAs did not monitor, the
are Met                            inappropriate implementation continued undetected. Without
                                   monitoring, officials cannot ensure that bilingual program objectives
                                   are being met. Ultimately, the students may not learn the new
                                   language as needed.

                                   An effective monitoring program would aid OBEMLA officials in
                                   determining whether Title VII grant dollars are used appropriately
                                   and whether grants are fulfilling the Department’s capacity building
                                   policy to assure that the schools can continue to offer bilingual
                                   education after Federal assistance is reduced or eliminated. As a
                                   result of our work, we determined that monitoring of Title VII grants
                                   needs improvement. The Office of Elementary and Secondary
                                   Education and OBEMLA officials recognized this need and developed
                                   an Integrated Review Team. The reviews include all education
                                   programs including Title VII programs. The team scheduled a total
                                   of five integrated reviews nationwide during school year 1996-1997,
                                   beginning in October 1996. While the team has completed several
                                   reviews during the school year, this effort alone may not serve to
                                   fulfill the monitoring need.


                                   OBEMLA Monitoring

                                   In the IASA, the Congress declared it to be the policy of the United
                                   States to assist state and local educational agencies, institutions of
                                   higher learning, and community-based organizations in building their
                                   capacity to establish, implement, and sustain programs of instruction
                                   for limited-English proficient students.4 OBEMLA helps school

       4
        Improving America’s Schools Act, Title VII Sec. 7102 (b). October 20, 1994.

                                                                                                        5
                                            BILINGUAL EDUCATION
ED-OIG-ATLANTA                                    ACN: 04-60152                                 FINAL

                                   districts to meet their responsibility to provide equal education
                                   opportunity to limited-English proficient children.5

                                   OBEMLA’s responsibilities include providing technical assistance to
                                   grant applicants, negotiating grant specifics with district and school
                                   officials, and monitoring grant implementation. OBEMLA provides
                                   informative newsletters, annual planning seminars, and other
                                   information; however, parties interested in grants do not always
                                   receive the information or know of its existence. OBEMLA conducts
                                   its responsibilities with approximately 44 employees including 26
                                   Education Program Specialists on a budget of $3,016,000.

                                   OBEMLA officials explained that they conduct monitoring through
                                   on-site visits and telephone calls. However, OBEMLA Program
                                   Specialists reported that budget and time constraints prevent them
                                   from conducting on-site monitoring reviews as needed. Program
                                   Specialists and other OBEMLA officials interviewed reported that
                                   they had not routinely conducted on-site monitoring reviews in 1995
                                   or 1996. OBEMLA’s report of 1995 travel expenses showed that
                                   OBEMLA had incurred approximately $82,000 in travel expenses. Of
                                   this amount, only $523 was specifically identified as a site visit. The
                                   majority of OBEMLA’s travel funds were used to conduct technical
                                   assistance conferences.

                                   We interviewed Program Specialists responsible for the East,
                                   Midwest, and West regions. The Program Specialists reported that
                                   they no longer have specific instructions for what the monitoring
                                   reviews should include or when such reviews should be conducted.

                                   The Program Specialists interviewed explained that they provide
                                   monitoring through telephone contacts. However, the Program
                                   Specialists reported that they do not keep formal documentation of
                                   the calls or decisions made based on these discussions. Two of the
                                   twelve Program Specialists explained that they will make notes in their
                                   calendars or personal schedules of the telephone calls. The other
                                   Program Specialists interviewed did not specify any means of
                                   documentation.



      5
       Improving America’s Schools Act, Title VII Sec. 7131( a ) and ( c ). October 20, 1994.

                                                                                                         6
                        BILINGUAL EDUCATION
ED-OIG-ATLANTA                ACN: 04-60152                    FINAL

                 One Program Specialist equated the word “grant” with “gift” and
                 reported that OBEMLA rarely terminates a grant or asks for the
                 return of Title VII dollars; therefore, monitoring grants would have
                 little effect.

                 Neither the OBEMLA working grant files nor the official grant files
                 for the seven grants reviewed contained any documentation to support
                 on-site monitoring or monitoring through telephone calls. Officials in
                 the SEAs, LEAs, and schools including those over direct grant
                 implementation reported that while OBEMLA provided technical
                 assistance when requested, OBEMLA had not provided direct
                 monitoring.

                 New York SEA officials reported that OBEMLA Program Specialists
                 had been helpful in addressing student needs but had not conducted a
                 formal monitoring review. Texas LEA officials reported that they had
                 contacted OBEMLA asking questions about financial matters and had
                 also received the OBEMLA Newsletter; however, they had not
                 received a monitoring review. California SEA officials reported that
                 OBEMLA had requested the SEA’s involvement in providing
                 technical assistance in solving a local problem. However, neither
                 OBEMLA nor the SEA actually performed a formal monitoring
                 review. The Project Director for one of the California grants reported
                 that OBEMLA has called about twice a year. The Project Director
                 reported that these calls consisted of the OBEMLA Program
                 Specialists asking “how they were doing”. Neither the Project
                 Director nor the official grant file had any supporting documentation
                 for these telephone calls.


                 SEA and LEA Level Monitoring

                 For the three SEAs we visited, officials reported that they do not
                 conduct specific monitoring reviews of Title VII grants. The SEAs
                 may conduct reviews of the state bilingual programs which may
                 include a Title VII grant. However, the monitoring reviews focus on
                 state regulation compliance. SEA officials report that it is not the
                 state’s responsibility to conduct monitoring reviews of Title VII
                 grants. California, Texas, and New York officials identified their
                 responsibility as providing technical assistance to Title VII grant
                 recipients. The technical assistance often takes on the form of

                                                                                      7
                                           BILINGUAL EDUCATION
ED-OIG-ATLANTA                                   ACN: 04-60152                    FINAL

                                  workshops designed to provide instruction on how to complete grant
                                  application packages. The SEAs also provide information on bilingual
                                  programs in general. However, the technical assistance takes place
                                  largely at the beginning of the process. SEA officials do not follow
                                  through to determine if the workshops and information are useful to
                                  the field. New York officials explained that they view the grant
                                  relationship as one between the LEA and the Department.

                                  The LEAs provide monitoring reviews over the grants. However,
                                  these reviews may only occur on a cyclical basis. For example, an
                                  LEA in Texas reviews grants every three years. With this schedule,
                                  it is possible that a grant could operate without monitoring for the
                                  lifetime of the grant. The LEAs have a fiduciary fiscal responsibility
                                  to ensure that Title VII funds are used appropriately making
                                  monitoring at the LEA level necessary as well.

                                  All three states visited received a Title VII State Grant Program grant
                                  in 1995.

                                               TITLE VII STATE GRANT PROGRAM GRANTS
                                                     STATE                         GRANT AMOUNT
                                                 CALIFORNIA                             $1,080,000
                                                  NEW YORK                                $530,000
                                                     TEXAS                                $219,260
                                                     TOTAL                              $1,829,260

                                  Figure 1



                                  The three SEAs visited received over $1.8 million in 1995; yet, they
                                  conducted no monitoring reviews. Title VII of the IASA specifies
                                  that under the State Grant Program, the recipients shall use the funds
                                  to assist the LEAs with program design, capacity building, assessment
                                  of student performance, and program evaluation.6 OBEMLA should
                                  encourage SEAs to consult with the grant recipient LEAs in order to


      6
       Improving America’s Schools Act, Title VII, Sec. 7134. October 20, 1994.

                                                                                                        8
                                            BILINGUAL EDUCATION
ED-OIG-ATLANTA                                    ACN: 04-60152                   FINAL

                                   enhance the effectiveness of Title VII grant awards and provide an
                                   additional source of compliance oversight. Although Title VII does
                                   not specifically require that State Grant Program recipients monitor
                                   Title VII grants, monitoring efforts would be one way to help the
                                   SEAs comply with the responsibilities specified in the IASA.




                                   Because of insufficient monitoring, inappropriate grant
    Effects                        implementation continued undetected. Of the seven grants reviewed,
                                   students have not received the full benefit of two grants in Texas and
                                   one grant in New York.

                                   GRANT TX(1)

                                   Our audit identified a dual language program comprehensive grant of
                                   approximately $613,000 that was not fully serving the students. A
                                   dual language program is designed to provide a single-learning
                                   environment for both limited-English proficient students and fluent
                                   English proficient students. The primary goal of the program is for all
                                   students to become academically proficient in their native language as
                                   well as in the new language.

                                   Grant officials responsible for this grant were not implementing the
                                   grant as approved by OBEMLA. School officials had varied from the
                                   grant in four major areas: (1) use of the literacy development center,
                                   (2) use of the Spanish language in the classrooms, (3) use of the
                                   Resource Teacher in collaboration with the dual language teachers in
                                   developing lesson plans, and (4) use of Title VII dollars for repairs
                                   and salaries not directly associated with the grant.

                                   El LICEO - Literacy Development Center [TX(1)]

                                   The central activity for the grant is the literacy development center
                                   called El7 LICEO. LICEO is an acronym for L-language, I-
                                   instruction, C-culture, E-education, and O-opportunity. The purpose
                                   of El LICEO is to provide Spanish literacy classes for the entire


      7
       In English, “El” equates to “the”.

                                                                                                         9
                        BILINGUAL EDUCATION
ED-OIG-ATLANTA                ACN: 04-60152                    FINAL

                 limited-English proficient/Spanish population kindergarten through
                 fifth grade.

                 The grant specifies that students in the Two-Way Developmental
                 Bilingual Program and all other Spanish limited-English proficient
                 classes should be scheduled into El LICEO on a daily basis. The
                 center serves 120 limited-English proficient students. During our
                 initial coverage in October 1996 and as recent as December 1996,
                 school officials were not scheduling the students into El LICEO on a
                 daily basis as required by the grant.

                 The Principal explained that it was never intended that students would
                 go into El LICEO daily. She added that she and two other teachers
                 wrote the grant without the aid of a grant writer. She explained that
                 the students go to El LICEO by weeks. For example, the students in
                 one class might go to El LICEO every day for one
                 week and then not return for two weeks. During this two week
                 period, another class would go to El LICEO. OBEMLA officials
                 reported that no one had requested approval to deviate from the grant
                 as written.

                 After we reported the conditions of grant implementation to the LEA,
                 the officials explained that the Principal and school staff are
                 responsible for the day to day grant implementation. The LEA
                 officials explained that they monitor on a three year cycle. As of
                 October 1996, the LEA had not yet monitored this grant.

                 The Use of the Spanish Language in the Classroom [TX(1)]

                 The first-year program targets the kindergarten and first grade
                 completely. Second through fifth grade Spanish speaking limited-
                 English proficient students are being served through El LICEO. The
                 grant specifies that the Two-Way Developmental Bilingual Program
                 teachers will use Spanish 80% of the day for kindergartners and first
                 graders, 70% of the day for second graders, and 50% of the day for
                 third through fifth graders (Figure 2). Grant writers emphasized the
                 relative immersion in Spanish during school hours because the
                 students hear and read mostly English outside of school.




                                                                                     10
                        BILINGUAL EDUCATION
ED-OIG-ATLANTA                ACN: 04-60152                   FINAL




                  Figure 2



                 However, the Project Coordinator/El LICEO teacher and a Title VII
                 aide reported that Spanish is not being used in the classroom 80% of
                 the instruction day for kindergarten and first grade. They reported
                 that Spanish is being used, at the most, 70% of the school day.

                 Figure 3 shows a comparison between the grant requirements and the
                 actual implementation. There was insufficient data to draw a
                 comparison for the second through fifth grades.




                                                                                   11
                        BILINGUAL EDUCATION
ED-OIG-ATLANTA                ACN: 04-60152                      FINAL




                    Figure 3


                 Without the grant prescribed use of Spanish, the students may not
                 become academically fluent in Spanish.

                 Teacher Collaboration [TX(1)]

                 The grant specifies that El LICEO teacher, aide, and classroom
                 bilingual teachers will collaboratively design experiences in the center.
                 However, the Project Coordinator/El LICEO teacher reported that the
                 teachers inform her of the subject they are teaching in their classes and
                 direct her to develop the coordinating El LICEO lesson. Our review
                 of written instructions from the classroom teachers confirms this type
                 of direction. El LICEO teacher/Project Coordinator reported that
                 despite her efforts emphasizing the need for collaboration to promote
                 capacity building, the teachers continue to require that she alone
                 develop El LICEO lessons.




                                                                                       12
                        BILINGUAL EDUCATION
ED-OIG-ATLANTA                ACN: 04-60152                      FINAL

                 Use of Title VII Dollars for Repairs and Salaries [TX(1)]

                 We identified the potential misuse of Title VII dollars in two areas: (1)
                 Title VII dollars slated for use to pay for common use electrical
                 repairs and (2) Title VII salaried aides used for work outside of the
                 grant.

                 The Project Coordinator/El LICEO teacher reported that the Principal
                 had instructed her to pay for electrical repairs with Title VII dollars.
                 At the time of our audit, she had not yet submitted the bill for
                 payment. The LEA officials explained that using Title VII dollars for
                 basic electrical repair work was inappropriate. They added that they
                 would inform the Principal. The Principal agreed that the repairs
                 would benefit the school overall, but added that she had no money in
                 the local budget to pay for the electrical repairs. After we made
                 OBEMLA officials aware of the possibility of Title VII dollars being
                 misused, OBEMLA officials confirmed that Title VII dollars were not
                 used to pay for electrical repairs.

                 A Title VII aide reported to the Project Coordinator/El LICEO
                 teacher that the Principal had directed her to translate documents that
                 were not part of grant activities.

                 Even though the LEA, the Principal, and the Project Coordinator/El
                 LICEO teacher are aware of these inappropriate uses, OBEMLA and
                 the SEA should conduct thorough monitoring reviews to ensure that
                 the grant officials understand the permitted uses of grant dollars.
                 After we made OBEMLA officials aware of this grant’s
                 implementation, they agreed that the conditions cited warrant further
                 investigation.




                 GRANT TX(2)

                 For a $561,000 Transitional Bilingual Education grant in Texas, we
                 identified one teacher not using grant approved teaching techniques
                 in an English as a Second Language (ESL) class. The ESL certified
                 teacher used the lecture approach with a lesson outline displayed via
                 an overhead projector. However, the Project Director expressed
                 concerns about the teacher not using appropriate ESL instructional

                                                                                       13
                        BILINGUAL EDUCATION
ED-OIG-ATLANTA                ACN: 04-60152                     FINAL

                 approaches. ESL approaches include the use of visual aids, added
                 attention to technical vocabulary, and group dynamics. The Project
                 Director explained that without the use of ESL approaches, the
                 limited-English proficient students do not always understand the
                 lesson’s meaning and cannot always learn the lesson’s principles and
                 content.

                 GRANT NY(1)

                 In New York, because of a local level hiring freeze in the Fall of 1994,
                 officials responsible for a $555,000 Transitional Bilingual Education
                 grant were prohibited from hiring grant implementation staff,
                 specifically a project director. OBEMLA retained the grant dollars
                 until the Spring of 1995 when the local level could hire staff to
                 implement the grant. One of the schools covered by the grant decided
                 not to implement the grant in the first year believing that beginning
                 grant activities in the middle of the school year would be disruptive.
                 As a result, the students at this school did not have the opportunity to
                 take advantage of the Title VII bilingual program until the following
                 year.

                 Inappropriate grant implementation could be avoided with monitoring
   Summary of    reviews. Without appropriate grant implementation, students will not
     Effects     receive the full benefit of Federal grant dollars. OBEMLA could use
                 monitoring results to conduct a trend analysis showing the most
                 effective means of grant management. This analysis along with other
                 monitoring information could help OBEMLA to identify weaknesses
                 in grant management. Additionally, monitoring review reports could
                 help show the effectiveness of Federal grant dollars used in teaching
                 students new languages. These positive monitoring reports will help
                 support OBEMLA’s and the Department’s future requests for
                 increased appropriations from the Congress.




                                                                                      14
                           BILINGUAL EDUCATION
 ED-OIG-ATLANTA                  ACN: 04-60152                     FINAL


                    The Acting Deputy Secretary of Education has emphasized that with
     Needed         the increased flexibility in the IASA, comes the need for increased
  Improvements      accountability. OBEMLA and the Department are now faced with
                    developing the resources and measures to demonstrate their own
                    accountability as well as developing measures to hold grant recipients
                    accountable. The 1999 Reauthorization of the IASA will provide the
                    Department with the opportunity to revise and improve the IASA,
                    especially Title VII, to include effective measures to show
                    accountability. Accountability measures should include conducting
                    monitoring reviews to ensure grant implementation.

                    OBEMLA should consider utilizing a central mechanism; e.g. the
                    OBEMLA Newsletter, to provide results from monitoring reviews and
                    decisions made from telephone calls. OBEMLA could then use the
                    information to provide consistency in grantee direction. Additionally,
                    the disseminated information may reduce incoming telephone calls
                    from grantees.

                    Improving the grant control environment to include additional
                    monitoring would help to ensure that the grants are used to develop
                    capacity building programs that will far outlast the grants themselves.
                    Monitoring would also help to ensure the Department’s ultimate goal
                    to use Title VII dollars to teach students new languages so that they
                    may become more productive members of society.


                    In February of 1997, OBEMLA officials provided draft plans for
Recent Approaches   improving monitoring efforts. These plans include expanding site-visit
 to Improvements    monitoring and revising the monitoring and planning guide.
                    OBEMLA officials have begun increased monitoring in several states
                    and plan to visit more states in the coming months. Officials report
                    that documentation of OBEMLA contact with grant recipients will
                    improve with implementation of the new monitoring instrument.




                                                                                         15
                          BILINGUAL EDUCATION
 ED-OIG-ATLANTA                 ACN: 04-60152                    FINAL


 Recommendations   The Director of OBEMLA should work with appropriate officials to:

                   Recommendation 1:
                   Develop revisions to Title VII of the IASA during the 1999
                   Reauthorization to clarify the need and requirement for federal level
                   monitoring reviews of grants, including appropriations as needed.

                   Recommendation 2:
                   Prior to the 1999 Reauthorization, develop and implement a
                   monitoring program to provide for thorough on-site reviews of Title
                   VII grants and thorough documentation of monitoring results.

                   The monitoring program should include:

                   (1) Documentation of telephone calls and decisions made based on
                       the calls; inclusion of results in the working and official grant
                       files.

                   (2) Development of a central mechanism to provide results from
                       monitoring reviews and decisions made from telephone calls.

                   Recommendation 3:
                   Collaborate with Title VII State Grant Program grant recipients to
                   increase consultation with LEAs to enhance the effectiveness of Title
                   VII grant awards and provide an additional source of compliance
                   oversight.

                   Recommendation 4:
                   Conduct a thorough monitoring review of the Grant TX(1).
                   Document review results to support either terminating or continuing
                   the grant.



                   OBEMLA’s response is included verbatim in the Appendix.
OBEMLA Response    OBEMLA’s response focused on several areas:

                   (1) OBEMLA better serves grantees through technical assistance
                   conferences because of the numbers that can be reached. OBEMLA’s
                   response stated that it had now placed a high priority on monitoring

                                                                                      16
                        BILINGUAL EDUCATION
ED-OIG-ATLANTA                ACN: 04-60152                     FINAL

                 and developed new protocols, planning materials and schedules for
                 monitoring grant activities.

                 (2) OBEMLA disagreed with our recommendation that SEAs
                 receiving Title VII State Grant Program funds should be encouraged
                 to monitor the LEAs receiving Title VII grants.

                 (3) OBEMLA disagreed with our determinations of inappropriate
                 grant implementation and our finding that LEAs were not but should
                 be requesting approval from OBEMLA before making modifications
                 in the way that the grants are implemented. OBEMLA’s response
                 indicated that having LEAs request such approval would lead to micro
                 management of the grant projects.

                 (4) OBEMLA concurred with our recommendations for improving its
                 monitoring efforts and to perform a review of the Grant TX(1).
                 OBEMLA disagreed with our recommendations to clarify the
                 statutory requirements for OBEMLA and State-level monitoring.



                 The OIG is heartened by OBEMLA’s renewed priority on monitoring
 OIG Rebuttal    and its efforts to prepare new monitoring materials such as guiding
                 principles on monitoring, a site planning guide, a monitoring log to
                 capture on-site and phone contacts with grantees, and a detailed grant
                 monitoring instrument.

                 Concerning State level monitoring of LEAs, the OIG believes that
                 monitoring can be a very useful tool in helping OBEMLA to identify
                 cross-cutting issues that affect a multitude of grantees. We still
                 believe that OBEMLA should encourage SEAs receiving State Grants
                 to consult more frequently with LEAs to enhance the effectiveness of
                 Title VII grant awards and provide an additional source of compliance
                 oversight.

                 Concerning inappropriate grant implementation, OBEMLA did not
                 submit documentation that would cause us to change our
                 determinations. We reviewed a sample of grants from the three
                 largest states receiving a majority of the Title VII grants. Our review
                 provides examples of areas where OBEMLA should improve its
                 monitoring efforts. OBEMLA argues that requiring LEA approval for

                                                                                      17
                        BILINGUAL EDUCATION
ED-OIG-ATLANTA                ACN: 04-60152                   FINAL

                 changes in grant implementation could lead to micro management of
                 grant projects. However, 34 CFR 74.25 (b) and (c)(1) set the
                 following requirement:

                     “(b) Recipients are required to report deviations from
                     budget and program plans, and request prior approvals for
                     budget and program plan revisions, in accordance with this
                     section.

                     ( c) For nonconstruction awards, recipients shall request
                     prior approvals from ED for one or more of the following
                     program or budget related reasons:
                     (1) Change in the scope or the objective of the project or
                     program (even if there is no associated budget revision
                     requiring prior written approval).”

                 Based upon this regulation and 34 CFR 80.30 (d)(1) which further
                 supports the need for prior approval for scope changes, the OIG
                 contends that approvals for changes in scope should be obtained from
                 OBEMLA prior to changes in implementation.

                 OBEMLA did not submit documentation that caused us to change our
                 recommendation that the IASA should be revised to include
                 clarification of the need for federal level monitoring reviews of
                 grantees; however, we did combine Recommendations 1 and 4 in the
                 final report. Our recommendation that OBEMLA collaborate with the
                 SEAs more frequently to enhance the effectiveness of Title VII grants
                 has not changed.




                                                                                    18
                        BILINGUAL EDUCATION
ED-OIG-ATLANTA                ACN: 04-60152                    FINAL




                                   OTHER MATTERS


                 Use of Students’Native Language in Classrooms

                 Our survey of the IASA identified Congressional concerns about
                 possible excessive use of the students’ native language. To address
                 these concerns, our audit included steps for testing the adequacy of
                 controls over grant implementation. As we visited the various LEAs
                 and schools in our sample, we observed classroom instruction and
                 classroom layouts. We also interviewed teachers and students and
                 reviewed classroom materials utilized in teaching. Teachers
                 consistently used English in the bilingual classes as required by the
                 grants. Consequently, we determined that the students’ native
                 language was not being used excessively in these grants and that the
                 controls over language usage appear adequate. As a result of our
                 audit, we found no evidence to support further testing in this area.
                 Future OIG work concerning bilingual education issues will include
                 testing of individual occurrences as they are noted.


                 Future Audit Coverage of Bilingual Education Grants

                 As this report indicates, our audit has identified management control
                 weaknesses in grant monitoring. Therefore, future audit work will
                 include reviewing the controls over Title VII grant implementation.




                                                                                    19
                        BILINGUAL EDUCATION
ED-OIG-ATLANTA                ACN: 04-60152                    FINAL




                                STATEMENT ON
                             MANAGEMENT CONTROLS

                 As part of our audit, we assessed the system of management controls,
                 policies, procedures, and practices applicable to OBEMLA’s
                 administration of the Title VII grants. Our assessment was performed
                 to determine the level of control risk for determining the nature,
                 extent, and timing of our substantive tests to accomplish the audit
                 objectives.

                 For the purpose of this report, we assessed the controls used for
                 ensuring that bilingual program objectives are being met. The controls
                 reportedly used by OBEMLA include:

                 ‚   On-site monitoring

                 ‚   Monitoring through telephone calls

                 Because of inherent limitations, a study and evaluation made for the
                 limited purpose described above would not necessarily disclose all
                 material weaknesses in the management controls. However, our
                 assessment disclosed monitoring control weaknesses which adversely
                 affected OBEMLA’s capability of ensuring that bilingual program
                 objectives are being met. These weaknesses included not conducting
                 on-site monitoring reviews and inadequate documentation of grant
                 reviews completed through telephone calls. These weaknesses and
                 their effects are fully discussed in the AUDIT RESULTS section of
                 this report.




                                                                                     20
                                          BILINGUAL EDUCATION
      ED-OIG-ATLANTA                            ACN: 04-60152                        FINAL




                                            APPENDIX



                                                      UNITED STATES DEPARTMENT OF EDUCATION
MEMORANDUM                                            OFFICE OF BILINGUAL EDUCATION
                                                      AND MINORITY LANGUAGE AFFAIRS



To:         Carol Lynch
            Regional Inspector General for Audit, Office of the Inspector General
Cc:         Richard T. Rasa
            Advisory and Assistance Director, State and Local Programs, Office of the Inspector
            General

            Mike Smith
            Acting Deputy Secretary

         Susan Craig
         Assistant General Counsel
From:    Delia Pompa
         Director
Subject: Review of Monitoring Controls Used to Ensure Fulfillment of Title VII Bilingual
         Education Grant Program Objectives, ED Audit Control No. 04-60152
Date:    May 27, 1997

Thank you for the opportunity to respond to the above referenced audit. This memorandum provides
analyzes each section of the draft audit report. If you have questions about this memorandum, please
do not hesitate to contact me at (202) 205-5463.

Below are analyses of each section in the audit report:

1.    "Background", pp. 1-2

The section paraphrases several sections of the Title VII statute. The second paragraph, on page
1, suggests that the encouragement of English proficiency is incompatible or "in contrast" to other
aims of the act. Neither research nor the act makes that point. Thus I recommend that the audit
report list all or portions of the findings, policy and purpose of Title VII (Section 7102).


                       U.S. Department of Education, OBEMLA, Washington, D.C. 20202-6510          21
                                          BILINGUAL EDUCATION
     ED-OIG-ATLANTA                             ACN: 04-60152                        FINAL

     May 27, 1997
     Page 2

2.   "Scope and Methodology," p. 3

The numbers referenced are incorrect. In 1995, OBEMLA awarded $117 million to 663 grantees
under the bilingual instructional services grant program. Although $156 million was initially
appropriated for this program in Fiscal Year 1995, a rescissions bill passed in the middle of the fiscal
year reduced available funding by $38.5 million. Of the 663 grants, 254 were awarded to California,
89 to New York, and 48 to Texas. Together, these states were home to 59 percent of all grantees.

3.   "Audit Results - OBEMLA Monitoring," pp. 4-6

Paragraph 3, page 4, mischaracterizes the bilingual education program. The first sentence of the
aforementioned paragraph lists statutory provisions of the act set by Congress, not Department of
Education "policy" promulgated through regulation or disseminated through non-regulatory guidance.
Further, federal bilingual education grants are awarded and administered by OBEMLA and, in the
strictest sense of the word, managed by local education agencies receiving Title VII funds.

With regard to Paragraph 1, page 5, OBEMLA does provide technical assistance in implementing
awarded grants, but does not provide assistance in completing the grant application. OBEMLA makes
every effort to disseminate information regarding upcoming grant competitions, through the web site
of its contractor, the National Clearinghouse for Bilingual Education (NCBE), the OBEMLA Fax
Newsletter, and participation in various conferences of potential applicants. It is unreasonable to
expect that every local educational agency potentially interested in applying for grant would be aware
of relevant grant competitions. I should note that the NCBE web site is visited over 1.25 million times
yearly by users of the Internet. The entire grant application for OBEMLA programs are now posted
on the NCBE and the OBEMLA web sites.

It is extremely important to remember that the purpose of monitoring should be to help grantees
improve grant implementation. Thus while on site monitoring in 1995 and 1996 was minimal,
OBEMLA staff were able to dispense a great deal of technical assistance to grantees through
professional conferences. While an on site monitoring visit may allow a program officer to reach a
handful of grantees each outing, a conference allows program officers to reach hundreds of grantees
at a time. At the most recent OBEMLA Professional Development Institute, held in conjunction with
the 6,000 person conference of the National Association for Bilingual Education, OBEMLA program
officers were able to contact at least 800 individuals working in school districts receiving Title VII
funds. Thus the need to conduct systematic on site monitoring must be balanced against the need
to dispense higher impact technical assistance through conferences. Both, of course, are possible
and important.

As the audit was being conducted, OBEMLA reshaped its strategic plan and placed a high priority on
monitoring. We have developed new protocols, planning materials, and schedules for monitoring


                       U.S. Department of Education, OBEMLA, Washington, D.C. 20202-6510              22
                                           BILINGUAL EDUCATION
     ED-OIG-ATLANTA                              ACN: 04-60152                        FINAL

grant activities. The result of our effort is at least 27 on-site monitoring visits scheduled between
April 14, 1997 and March 6, 1998 to Arizona, California, Colorado, Florida, Kentucky, Louisiana,
Maine,
    May 27, 1997
    Page 3

Massachusetts, Michigan, Oklahoma, New Mexico, New York, Oregon, Tennessee, Texas, Utah,
Virginia, and Wisconsin. I note that OBEMLA's renewed priority on monitoring has been made
possible by additional salary and expenses funds allocated to each program office for monitoring by
the Office of the Under secretary.

New monitoring materials include principles to guide monitoring, a site planning guide, a monitoring
log to capture on-site and phone contacts with grantees, and a detailed grant monitoring instrument.
A copy of the OBEMLA monitoring schedule, results of recent visits, and other relevant documents
are attached.

With regard to paragraph 5, page 5, I must make it absolutely clear that the statement of one program
specialist does not reflect the official position of nor official actions by OBEMLA. OBEMLA
administers grants according to applicable statutes and regulations. Our intent is to ensure to assist
grantees in implementing the highest quality grant possible. If a grantee is found to implementing a
project in a manner inconsistent with the law, regulation, or their application, a program officer works
with grantees to improve implementation. However, if such an effort is unsuccessful, OBEMLA will,
as it has in the recent past, terminate funding. For example, an on site monitoring visit by OBEMLA
staff in November 1996 encountered problems with grant implementation at the West Side High
School in New York City. After discussions with the grantee, the school voluntarily terminated its
grant. Another example is cited in he Office of General Counsel's memorandum reviewing the draft
audit report. [See page 5 of memorandum from Susan Craig to Carol Lynch dated May 2, 1997]

4.   "Audit Results - SEA and LEA Monitoring," pp. 6-7

This section is based on the assumption that State Education Agencies must monitor Title VII
grantees. There is no legal grounds for such an assumption. The Office of General Counsel stated
the following in its review of the draft audit report:

     The Draft Audit Report questions whether a State educational agency (SEA) can meet its
     responsibilities under the Title VII State Grant Program, 20 U.S.C. § 7454, if it does not monitor
     Title VII grant recipients in its State ... We do not share this concern because SEA's are not
     required to monitor those grantee ... In a direct grant program, as distinct from a State
     administered program, SEA's do not have any responsibility either from allocating funds to
     eligible subgrantees or for monitoring compliance. 34 C.F.R. § 80.40(b) [See page 5 of
     memorandum from Susan Craig to Carol Lynch dated May 2, 1997]

Without additional funding, establishing new requirements on SEA's to monitor Title VII grantees, as


                        U.S. Department of Education, OBEMLA, Washington, D.C. 20202-6510             23
                                          BILINGUAL EDUCATION
     ED-OIG-ATLANTA                             ACN: 04-60152                        FINAL

recommended in the draft audit report, would have to come at the expense of current activities
permissible under the law, technical assistance and data collection, Section 7134(c)(1). It is important
to remember that by law SEA's are required to serve all local educational agencies within the state
that serve limited-English proficient students, not just those that receive funding under Title VII,
Section 7134(c)(4). The $219,260 that the Texas SEA received in 1995, for example, was used to
     May 27, 1997
     Page 4

 provide technical assistance to and collect data from local educational agencies serving the state's
457,437 limited-English proficient students.

Moreover, the total appropriations available to State education agencies has been relatively constant.
In fiscal years 1996 and 1997, Congress appropriated no funding for the bilingual education support
services account, from which SEA grants are funded. Congress did approve reprogramming requests
from the Department that permitted continuation of the SEA grant program, but the reprogrammed
levels were significantly below the Department's budget request for bilingual education support
services.

For these reasons and in light of the fact that the SEA's are not responsible for distributing bilingual
education instructional services funds to local educational agencies, I do not believe it would be a
judicious use of funds to expand legal requirements by SEA's to monitor local educational agencies.
Nevertheless, OBEMLA plans to work with SEA's to determine a level of consultation on monitoring
of local educational agencies that is consistent with the law and expected funding for the program.

5.   Analysis of "Effects - Grant TX (1) ", pp. 8-12

I dispute several of the instances cited as inappropriate grant implementation. Most of the examples
of inappropriate grant management are small variations in grant activities. Student needs, school
resources available to the grantee, and the relative success of a particular instructional effort must
all be weighed by the grantee as they implement the grant over five years. Grantees must be allowed
sufficient flexibility to make minor changes in grant activities to adapt to changing grant conditions.
The alternative would be to place unreasonably burdensome requirements on grantees to secure
approval for every minor change in grant activities.

Examples of unapproved, inappropriate changes in grant activities cited in the report include a change
in the number of days that students visit the literacy development center and 10 percent deviation in
the amount of Spanish and English used in the dual language instructional model. Minor refinements
to the plan of operation are to be expected and, indeed, some times welcomed because they may
suggest that the grantee using the flexibility of the program to improve implementation. It is a matter
of judgement as to whether small variations in program implementation such as those cited in the
report would require formal approval by OBEMLA. As a practical matter, if OBEMLA were to require
grantees to secure approval for minor program changes, there might be hundreds of such requests
each month. Micro management of projects does not further the interests of the grantee nor the


                       U.S. Department of Education, OBEMLA, Washington, D.C. 20202-6510              24
                                           BILINGUAL EDUCATION
     ED-OIG-ATLANTA                              ACN: 04-60152                        FINAL

government.

The emphasis of OBEMLA's programs is on outcomes. If a grantees' activities are substantially
reflective of the application, the annual performance report documents measurable progress toward
the goals of the grantee's application, and the annual performance report explains changes to
program activities, OBEMLA would consider the grantee successful and award a continuation grant.
If these conditions were met, OBEMLA would not commonly require grantees to secure approval for
      May 27, 1997
      Page 5

minor program changes. In the case of grant TX (1), OBEMLA will carefully examine the second
annual performance report to assure that ongoing grant activities, including any changes to grant
activities, have helped the grantee to fulfill its objectives.

With regard to paragraph 2, page 12, OBEMLA has determined that no Title VII funds were                used
to pay for electrical repairs. I urge your office to confirm and explain this information in the final audit
report.

With regard to paragraph 3, page 12, it is unclear whether the teacher aide's translation duties were
inappropriate. According the application, all teacher aides were to be devoted 100 percent to grant
activities. However, school officials may choose to request work by school employees associated with
the grant beyond a full work week. As stated in the report, OBEMLA is further investigating all of the
matters cited in the report.

6.   Analysis of "Effects - Grant TX (2) ", pp. 12-13

Regarding grant TX (2), I would offer the same analysis provided for grant TX (1). If a grantees'
activities are substantially reflective of the application, the annual performance report documents
measurable progress toward the goals of the grantee's application, and the annual performance report
explains changes to program activities, OBEMLA would consider the grantee successful and award
a continuation grant. If these conditions were met, OBEMLA would not commonly require grantees
to secure approval for minor program changes. The fact that the project director of grant TX (2), as
noted in draft audit report, expressed dissatisfaction with the techniques used by the ESL teacher
suggests that possibility of self-correction.

7.   Analysis of "Effects - Grant NY (1) ", p. 13

Onsite monitoring could not have prevented the local fiscal problems of grant NY (1). In fact, as noted
in the draft audit report, OBEMLA retained grant dollars until the grantee could demonstrate that it
could implement the grant as approved.

8.   Analysis of "Need Improvements," p. 14



                        U.S. Department of Education, OBEMLA, Washington, D.C. 20202-6510                 25
                                           BILINGUAL EDUCATION
     ED-OIG-ATLANTA                              ACN: 04-60152                        FINAL

I urge you to strike the first sentence of paragraph 3, page 14: "The Department may grant millions
of dollars each year which are not used as specified in Title VII." First, it is impossible to disprove that
statement. Even if the draft audit report found no inappropriately implemented grants, the statement
would still be true. Certainly, the draft audit report did not find that millions of Title VII were not used
as specified in Title VII. The three grants cited in the draft audit report would have spent collectively
spent less a million dollars through 1997. As argued above, two of the three grants mentioned in the
report were not inappropriately implemented. Even the third, grant TX (1), provides weak evidence
of inappropriate implementation, primarily relating to translation activities by a teachers aide.


     May 27, 1997
     Page 6

Finally, it is very difficult to draw conclusions about the implementation of all OBEMLA grantees on
the basis of such a sample size. In 1995, OBEMLA awarded 663 grants. The audit examined the
operations of 7 grantees.

9.   Analysis of "Recommendations," p. 15

I disagree with recommendation 1 for the reasons mentioned in section 4 of this memorandum.

I strongly agree with recommendation 2 and have implemented such a plan as described in section
3. I commend the suggestion to better disseminate project outcomes and will work to devise ways
ro reach current and potential grantees.

I recommend that recommendation 3 be revised to reflect the changes suggested by the Office of
General Counsel. [See memorandum from Susan Craig to Carol Lynch dated May 2, 1997]

I disagree with recommendation 4 because it is unnecessary. OBEMLA already had the legal
authority to conduct monitoring. Additional funds for monitoring can be secured through the
Department's allocation of salaries and expenses funds. Specification of monitoring requirements
solely for the Title VII law would make it unique among Department programs and constitute unusual
and unnecessary limits on program flexibility.

I agree with the need to further investigate grant Texas (1), suggested in recommendation 5, but
disagree with the need for an unannounced visit. OBEMLA's goal should be to improve grantee
outcomes in a cooperative environment. There is no reason to believe that the grantee is intent on
concealing misdeeds. Unannounced visits are, as a rule, highly disruptive and may make it more
difficult to work with the grantee in the future.




                        U.S. Department of Education, OBEMLA, Washington, D.C. 20202-6510                 26
                                               BILINGUAL EDUCATION
ED-OIG-ATLANTA                                       ACN: 04-60152                                 FINAL



                                                  DISTRIBUTION

 U. S. Department of Education

      Director, Office of Bilingual Education and Minority Language Affairs . . . . . . . . . . . . . 4

      Audit Liaison Officer, Office of Bilingual Education and Minority Language Affairs . . . 1

      Chief, Audit Follow-up Branch, FMC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

      Public Affairs Specialist, Office of Public Affairs

Office of Inspector General

      Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

      Deputy Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

      Assistant Inspector General for Audit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

      Deputy Assistant Inspector General for Audit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

      Assistant Inspector General for Investigation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

      Assistant Inspectors General for Operations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1 each

      Advisory & Assistance Director, State and Local Programs . . . . . . . . . . . . . . . . . . . . . . 1

      Regional Inspectors General for Audit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1 each




                                                                                                                                      27
